No.

IN THE

Supreme Court U.S.
FILED

JAN 2 2 2021

SUPREME COURT OF THE UNITED STATES

OFFICE OF THE Cl FRIT

C[ V

PoWp^rcx c'V
— PETITIONER
(Your Name)
vs.

SWtg-s Qp A w«.r» c c\ i-S.,3

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

4“ or

\)r
StNL'tV C Ir tv 4:

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

PovCt^raA^ \3c\bS -03T
(Your Name)

Po W D.000
(Address)

’JoisA

AtoL. KuO, 08&40

*
(City, State, Zip Code)

(Phone Number)

PG,’iT!;R<ACT

A' '
■- \

* '%
f

kJ

RECEIVED
FEB - 9 2021

VBg&8$)8!3$:

QUESTIONS

1* Does Ziglar V Abbasi, 582 US'

, 137 S Ct

, 198 L Ed 2d

290 (2017) in deciding a private right of action under
Bivens, apply to a Federal Prisoner held on a criminal conviction
within the Federal Bureau of Prisons and files an Eighth
Amendment complaint under the Cruel and Unusual
Punishment clause?

2. Does Ziglar V Abbasi, 582 US

, 137 S Ct

, 198 L Ed 2d

290 (2017) in deciding a private right of action under
Bivens, apply to 28 USC §2201 & §2202 for Injunctive
Relief?

3. In regards to 42 USC §1983, does Municipal Liability
i,

apply to the Federal Bureau of prisons under Bivens?
(This question is only asking for a remand back to expand
the record on this issue.)

(i)

TABLE OF CONTENTS
Questions

(i)

Table of Contents

(ii)

Index of Appendices

(iii)

Table Of Authorities

(iv)

Citions of Lower Court Decisions

(v)

Jurisdictional Statement

(vi)

Constitutional and Statutory Provisions Involved

(vii)

Statement of the Case

(viii)

Summary of Argument

(ix)

Argument

(1)

(ii)

INDEX OF APPENDICES

APPENDEX

A - 2020 US App LEXIS 3.5268: Pontefract V United States
of America, et al: Case No 20-3064.

APPENDEX

B - 2019 US Dist LEXIS 219682: Pontefract V United
States of America, et al: Case No 4 19cv0528.

APPENDEX. C - Appealate Brief (20-3064)

APPENDEX

D - Pontefract's Bivens Complaint.

(iii)

TABLE OF AUTHORITIES
1. Bivens V Six Unknown Fed Narcotics Agents, 403 US 388,
29 L Ed 2d 619, 91 S Ct 1999(1971)_(vi)(viii)3ix)(l)(2)(3)(5)(6)
2. Callahan V Fed Bureau of Prisons,
965 F.3d 520(CA6,2020) -

(2)

3. Correctional Services Corp., V Malesko, 534 US 61,
122 S Ct 515, 151 L Ed g2d 456(2001) -

(5)

4. Farmer V Brennan, 511 US 825, 128 L Ed 2d 811,
114 S Ct 1970(1994) -

(x)(l)(3)(4)

5. Monell V New York City Dept, of Soc. Ser., 436 US 658,
98 S Ct 2018, 56 L Ed 2d 611(1978) -

(x)(5)

6. Rhodes V Chapman, 452 US 337, 101 S Ct 2392,
69 L Ed 2d 59(1981)

(4)

7. Richmond V Hug, 885 F.3d 928<CA6, 2018) -

(5)

8. Ziglar V Abbasi, 582 US
, 137 S Ct
198 L Ed 2d 290(2017) (i)(vi)(viii)(x)(xi)(l)(2)(3)(5)(6)
9. 2019 US Dist LEXIS 219682:Pontefract V United States
of America,et al: Case No 4 19cv0528 -

(v)

10. 2020 US App LEXIS 35268:Pontefract V United States
of America, et al: Case No 20-3064

(v)

11. 28 USC 1915 -

(vi)

12. 28

USC 2201 & 2202

13. 42

USC 1983

(i)(vi)(x)

-

(i)(viii)(ix)
United States Constitution

14.Eighth Amendment

(i)(ix)(x)(l)(3)(4)(5)

(iv)

CITATIONS OF LOWER COURT DECISIONS

The decision of the United States Court of Appeals for the Sixth
Circuit was not officially reported but is availible at:

2020 US App LEXIS 35268:Pontefract V United States of America
et al, (6th Cir), Case,No. 20-3064 and Appendex A.

The decision of the Northern District of Ohio District Court was
not reported but is set forth at:

2019 US Dist LEXIS 219682: Pontefract V United States:
December 23, 2019: Case No. 4:19cv0528, and Appendex B.

(v)

JURISDICTIONAL STATEMENT

This Court has jurisdiction of this matter under 28, USC §1254(1)
because:

1. On December 23 2019 the judgement for the Sixth Circuit
Federal Court of the Northern District of Ohio was
Dismissed for Failure To State A Cognizable Claim under
28 USC §1915(e)(2)(B) through Bivens and 28 USC §2201 &
§2202 for Declaratory and Injunctive relief.

2. On November 6 2020 the United States Court of Appeals forthe Sixth Circuit entered its final decision Affirming
the District Courts Dismissal applying Ziglar V Abbasi,
582 US __ , 137 S Ct 1843, 198 L Ed 2d 290 (2017).

3. On January

2021, Petitioner timely filed a writ of

Certiorari in this Court.

(vi)

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitution, Eighth Amendment:
Excessive bail shall not be required, nor excessive fines imposed,
nor cruel and unusual punishments inflicted.
42 USC 1983 - Civil Action for Deprivation of Rights.
Every person who, under color of any statute, ordinance, regulation,
custon, or usage, of any state or territory or the District of
Columbia, subjects, or causes to be subjected, any citizen of the
United States or other person within the jurisdiction thereof to the
deprivation of any rights, priveleges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an
action at law, suit in equity, or other proper proceeding for
redress, except that in any action brought against a judicial
officer for an act or omission taken in such officer's judicial
capacity, injunctive relief shall not be granted unless a declaratory
decree was violated or declaratory relief was unavailable. For the
purposes of this section, any Act.of Congress applicable exclusively
to the District of Columbia shall be considered to be a statute of
the District of Columbia.
28 USC 1915A - Screening.
(a) Screening. The court shall review, befor docketing, if feasible
or, in any event, as soon as practicable after docketing, a
complaint in a civil action in which a prisoner seeks redress from
a governmental entity or officer or employee of a governmental entity.
(b) grounds for dismissal. On review, the court shall identify
cognizable claims or dismiss the complaint, or any portion of the
complaint, if the complaint (1) is frivolous, malicious, or fails to state a claim upon
which relief may be granted; or ...

(vii)

STATEMENT OE THE CASE

Plaintiff is a federal prisoner and was housed at FCI Elkton
and was being given three meals a day of improper portion amounts.
These portion amounts would average between 1500-2000 calories
per day generally, causing malnutrition through a three year
period and Pontefract who is five feet and eleven inches tall
1
would average 160 lbs or less in weight.

Pontefract's Bivens complaint was dismissed and the appeal court
affirmed based on Ziglar and would not allow Pontefract a new
applied right of action. Within Pontefract's complaint, he also
asked for Declaratory and Injunctive relief but was also denied
supported by Ziglar.

In Pontefract's appeal brief he argued that Ziglar is distinguished
from Pontefract because Ziglar did not support actual incarcerated
federal prisoners. In doing so, a Bivens complaint should support
a Municipal Liability §1983 jurisprudence against the Federal
Bureau of Prisons for allowing the food administer to den.y
Pontefract's Constitutional Right to not be treated under
unconstitutional standards through the Administrative Remedy Process.

(viii)

SUMMARY OF ARGUMENT

Pontefract brings to this Court a Federal Prisoner Condition of
Confinement complaint through Bivens and the United States Constitution
of the Eighth Amendment from the-cruel and unusual punishment clause.
This specific complaint is about Pontefract being Malnutritioned
from the Federal Bureau of Prisons (FBOP) at FCI Elkton causing him
to be thinly under-weight during that time.

Pontefract filed through the FBOP's Administrative Remedy Informal
Resolution to the Food Administrator of FCI Elkton, Mr Ferguson. As a
solution could not be worked out and the food serving portion sizes did
not increase overall, Pontefract continued through the Administrative
Remedy Process. He proceeded through Mr Ferguson's supervisors of the
Federal Prisons Regional Director, and the Director of the FBOP, both
supported the Wardens conclusions and Pontefracts Malnutrition continued
through FCI Elktons COVID-19 pandemic. In doing so, Pontefract feels
that as Bivens is against a specific federal employee when all of the
FBOP supervisors supported the employees unconstitutional conduct
without relief, the FBOP is now libel for this unconstitutional conduct
as well as this specific federal employee through Bivens and 42 USC §1983
and their "custom" of allowing and supporting the Eighth Amendment
violation.

This led Pontefract into filing a district court complaint against Mr
Fergunson (Bivens) and the Warden, Mr Merlak, and the FBOP through

(ix)

Declaratory and Injunctive relief ( 28 USC §2201 & §2202), and
a damages claim which should of been supported by Monell, 436
US 658(1978) against the FBOP. These were not supported by the
Sixth Circuit Court of Appeals because of one Supreme Court
decision, Ziglar.

The district and appellant courts

for the Sixth Circuit applies

Ziglar to every citizen's scrutinized Private Right of Action
against Pontefract who is a federal prisoner. Pontefract
believes that Ziglar is distinguished from Pontefract because
" the Supreme Court never definitively applied Ziglar to a federal
prisoner within their oppinion

nor did they overrule Farmer, infra.

Because of this misinterpretation of Ziglar, Pontefract has been
denied his Constitutional Right to the Eighth Amendment and
Declaratory Relief. This is an important issue that needs
clarafication by the Supreme Court because at this time Ziglar
is blocking almost every federal prisoners constitutional rights
in every circuit of the United States. So what has been happening
is that the FBOP has been unfettered in denying federal prisoners
Constitutional Rights. As the Supreme Court examines the FBOP's
grievance responces they will see a complete failure in trying to
resolve Pontefracts issues. In other words, the FBOP has no fear
in NOT resolving Pontefract's complaint. Ziglar' s misapplication is
not only causing a violation of Pontefract's Constitutional

(x)

rights but this misapplication is causing the FBOP's across
the nation to not support the PLRA with Congress' intent. If
you can understand what Pontefract is saying, Ziglar's clarafication
will also lighten the amount of federal suits from federal
prisoners within the courts because the FBOP will have strong
desires to effectively work out inmate grievances for fear of
court actions of Prisoners Constitutional Rights.

(xi)
\

ARGUMENT

Farmer V Brennan, 511 US 825, 128 L Ed 2d 811, 114 S Ct 1970 (1994)
was a Bivens complaint that alleged a violation of the Eighth
Amendment and was supported by Bivens V Six Unknown Fed Narcotics
Agents, 403 US 388, 29 L Ed 2d 619, 91 S Ct 1999 (1971). (see
Farmer, 511 US 831) The Supreme Court (S Ct) gave a lengthy
explaination in Section II and supported a federal prisoners
"cruel and unusual punishments" violation using a multitude of
supporting S Ct precedents, (see Farmer, 511 US 833, 848-851).
Here in Farmer, most of this Courts precedents originated from
state actors.-

*** So does the "cruel and unusual punishments" clause apply to
just state prisoners and not federal prisoners?

Pontefract believes that its not the "cruel and unusual punishments"
clause that is distinguished from federal prisoners like himself
nor is Farmer as to a filing of a federal prisoners Bivens claim.
Pontefract is claiming that Ziglar is actually Distinguished from
Pontefract's federal prisoners Bivens claim, (see Appendex C
for his appealate Brief) Pontefract's argument was not given any
return argument by the appeals court, only silence.

In explaining the above pertinent facts, the Ohio district court
had claimed that Pontefract did not claim that Merlak or Ferguson's
conduct was personally undertaken to violate Pontefract's rights
and would not account for a new applied right of action under Ziglar.

-1-

(see Appendex B

LEXIS 5-6

)• "On appeal, Pontefract argues

that his complaint supported the food administrator and that he
was personally responsible for the actions alleged in the complaint."
The -appeal court goes on and states that "Pontefract does maintain
that the food administrator

is solely responsible' for ordering

the food and the small serving trays and for imposing a
one-size-fits-all program for food portions. Those allegations
satisfy the personal-involvement requirement." (see Apoendex A>
LEXIS 4) Then the appeals court dismissed Pontefract's Bivens
claim through Ziglar. (see Apendex

A, LEXIS 4-6)

While slamming the door they inturned tried to lock the door shut.
You see, Pontefract also had a Declaratory and Injunctive relief
within his complaint. The appeal court claimed the standard of
deliberate indifference towards Pontefracts "serious medical needs"
was insuffent. (see Exhibit A, LEXIS 6) While using this dream
theory standard and supporting their theory, they use for their
support Callahan V Fed Bureau of prisons, 965 F.3d 520(CA6, 2020).

Callahan denied the prisoners First Amendment claim because of
Ziglar and he was also denied injunctive relief. Callahan and
Pontefract has strong dissents contradicting their relief dismissals
and adds confusion over Ziglar. Both dissents thow, thought that
the plaintiffs should recieve the district courts injunctive relief
process separated from Bivens. The writer of both opinions was
Circuit Judge Sutton. As for Pontefract,the Circuit Court used
the incorrect standard of a "serious medical need" while Affirming
the district courts dismissal. Pontefract while performing pro-se
-2-

claimed the "minimal civilized measure of life's necessities."
(see Appendex D

, MOL p2 )

Pontefract feels that the standard to be used is "the minimal
civilized measure of life's necessities" stated in Farmer at
511 US 835.

Under this standard "it is enough that the official acted or failed
to act despite his knowledge of a substantial risk of serious harm"
by dening Pontefract's long term malnutrition claim. Farmer at
511 US 842. The deliberate indifference's "subjective approach
to deliberate indifference does not require a prisoner seeking a
remedy for unsafe conditions to await a tragic event such as an
actual assault.before obtaining relief," Farmer 511 US 845, (IQMO),
such as nine deaths from COVID-19 at FCI Elkton with Pontefract
also suffering from COVID-19 with lack of proper nutrition during
this pandemic.

"The question under the

Eighth Amendment is whether prison officials, acting with deliberate
indifference, expose a prisoner to a sufficiently substantial risk
of serious damage to his future health", (see Farmer, 511 US 843)
(IQMO). Would, that also include long term malnutrition? This Bivens
claim was not only denied by Ziglar but even Pontefract's
Declaratory and Injunctive relief. What is sad is that the S Ct
has already addressed this issue of injunctive relief. "It would,
indeed, be odd to deny an injunction to inmates who plainly proved
an unsafe, life-threatening condition in their prison on the ground
that nothing yet had happened to them." (see Farmer, 511 US 845)

-3-

In supporting this "[w]hen conditions of confinement amount to
cruel and unusual punishment, federal courts will discharge their
duty to protect constituional rights." (see Rhodes V Chapman, 452
US 337, 352, 101 S Ct 2392, 69 L Ed 2d 59 (1981).

The district and appealate courts denied Pontefract his Eighth
Amendment claim NOT ON THE FACTS, but through case law that does
not actually apply. May I ask, how is case law deciding the facts
of Pontefracts claims?

Even so, "[i]n a suit such as [Pontefract's], insofar as it seeks
injunctive relief to prevent a substantial risk of serious injury
from ripening into actual harm, the subjective factor, deliberate
indifference, should be determined in light of the prison
authorities current attitudes and conduct." (see Farmer 511 US 846)
Pontefract went through the admistrative remedy process and was
denied the opertunity to weigh 10 items on the menue to prove his
claim from all supervisors of Mr Ferguson. Why not grant Pontefract's
request? Because they knew that they were wrong and had no fear
from the court.

Even though Pontefract's actual complaint was before the COVID-19
pandemic he has been subsequently transfered to FCI Ft Dix in New
Jersey. Pontefract has been given food portion sizes even less
then before at FCI Elkton, at FCI Ft Dix. Pontefract is now and
again going threw another pandemic at Ft Dix. Two separate facilities,
the same problem and on-going because of no relief. Regardless,

-4-

Pontefract's complaint supported an Eighth Amendment Malnutrition
Bivens and Declaratory/Injunctive claim.

Pontefract made an argument supporting his position that Ziglar
i

is Distinguished from him, yet the Sixth Circuit never addressed
one iota of even one word against his position. Is this a
frivolous argument? The Supreme Court will now decide if Ziglar
is Distinguished from Pontefract, Regarding
Bivens and Declaratory and injunctive Relief.

Pontefract's original complaint also brought a claim against the
United States. The district court dismissed this complaint being
supported by Correctional Services Corp. V Malesko, 534 US 61, 70,
122 S Ct 515, 151 L Ed 2d 456 (2001). (see Exhibit

B, LEXIS 4)

The appeals court affirmed the district courts dismissal, (see
A, LEXIS 6

Please allow me some grace here. The appeal

court claimed that Pontefract claimed vicarious liability - this
is not so. Pontefract claimed that under Bivens/§1983 claims,
that under "person" and "customs" the United States should be
liable. Monell, at 436 US 691. This has been supported in the
Sixth circuit through Richmond V Hug, 885 F.3d 928, 984 (CA6, 2018).
So far, applying Municiple Liability against the FBOP under the
practice of the Custom of violating the Eighth Amendment has not
been established. There exist within Pontefract's complaint
Material Questions of Fact as to whether the actions of the FBOP's
Practice and Custom of improperly Malnutritioning Pontefract by
Mr Ferguson was supported by the FBOp regarding his Eighth

-5-

Amendment claim.

Pontefract ask the Supreme Court upon Remand to expand the record
of Pontefract's claims in the district court that the Federal
Bureau of prisons are libal under Municipal Liability through
Bivens.

Pontefract also ask the Supreme Court to Distinguished Ziglar
from Pontefract's claims and Remand back to the District Court
with allowance for an Amendment of his original complaint that
is consistant with this Court and include the Malnutrition claim
through out all facilities operated by the Federal Bureau of
Prisons that Pontefract could be transfered too.

I declare under penalty of perjury that the foregoing is true and correct and
that this motion was placed within the Prison Mail Box at FCI Ft Dix with
1st Class postage on January 5.0 2021.

Date:T'a^ 2.0 2't)2\
Clyde Pontefract
13955-035
FCI Ft Dix
PO Box 2000
JBMDL, N.J. 08640

-6-

